                                                                          i
                                                                          I1



                                                          OFFICE OF INVESTIGATIONS

                                                    CLOSEOUT MEMORANDUM




              This investigation was opened pursuant to a proactive review of awards for which no final
              project reports were submitted and for which expenses were incurred after the award expiration
              dates. A university1 which had sixteen such awards2 was selected as part of this review.

              The University was asked to review the sixteen awards selected and to provide information
              and/or an explanation about issues found. The University reviewed the selected awards and
              determined that certain charges, although posted after the award expiration dates, were for
              expenses that were incurred during the award period. These expenses, for one reason or another,
              had not been processed until after the expiration dates. The University stated that the outstanding
              final reports, which were noted in this matter, were recently submitted to NSF. However, a
              review of the NSF database system indicated that a couple of the final reports were still


              In conducting its review, the University found expenses charged in error on two of the awards.
              The University submitted a refundlcredit back to NSF for the full amounts charged in error. No
              evidence was found to indicate any wrongdoing or that NSF grant funds were misappropriated.

              Accordingly, this matter is closed.




I                                                                             I




    NSF OlG Form 2 (1 1/02)
